Nos. 19-251 & 19-255

____________________________________________________
IN THE

Supreme Court of the United States
__________
Americans for Prosperity Foundation,
Petitioner,
v.
Xavier Becerra, in his official capacity as the Attorney General of California,
Respondent.

__________
Thomas More Law Center,
Petitioner,
v.
Xavier Becerra, in his official capacity as the Attorney General of California,
Respondent.

__________
On Writ of Certiorari to the United States
Court of Appeals for the Ninth Circuit

__________
UNOPPOSED JOINT MOTION OF PETITIONERS FOR DIVIDED
ARGUMENT AND EXPANSION OF ORAL ARGUMENT

Pursuant to Rules 21 and 28.4 of this Court, Petitioner in No. 19-251,
Americans for Prosperity Foundation (“AFPF”), and Petitioner in No. 19-255, Thomas
More Law Center (“TMLC”), jointly move for divided argument and an expansion of
argument time in these consolidated cases.
AFPF and TMLC each request 15 minutes of argument time. This division of
argument will ensure that the Court receives the benefit of each Petitioner’s distinct
perspectives and arguments. And division will also ensure that both Petitioners have
their interests fully represented. Because Petitioners have different legal theories
and different trial-court records, requiring one attorney to represent both Petitioners
in a single oral argument would prejudice Petitioners and lead to unnecessary
confusion. As explained below, this Court has granted divided argument in other
consolidated cases presenting similar situations, and the Court should follow the
same approach here.
The United States has informed Petitioners’ counsel that it intends to file a
motion for leave to participate in the oral argument as amicus curiae in support of
vacating and remanding the judgment below, and that the 10 minutes it will request
for oral argument should come equally from the time allotted to Petitioners and to
Respondent, five minutes apiece. Accordingly, in the event that the United States
files such a motion, Petitioners also respectfully request that the Court expand the
argument time by 10 minutes for the United States while dividing the argument time
for Petitioners, 15 minutes for AFPF and 15 minutes for TMLC. The United States
has informed Petitioners’ counsel that it does not oppose expansion of the argument

1

time or the division sought by this motion, provided the United States is allotted 10
minutes of argument time. Respondent likewise has informed Petitioners’ counsel
that Respondent does not oppose the requests to enlarge the time by ten minutes and
to divide petitioners’ time equally between each petitioner.
In support of divided argument, Petitioners state:
1.

These cases present First Amendment challenges to Respondent’s

requirement that all charities that operate or fundraise in California disclose to the
California Attorney General’s office the names and addresses of their major donors
as listed on Schedule B to IRS Form 990.
2.

Petitioners advance distinct arguments in this Court on the applicable

standard of constitutional scrutiny. They agree that the Ninth Circuit erred in the
standard of scrutiny it applied to California’s disclosure demand. AFPF Br. 20;
TMLC Br. 18. But whereas AFPF contends that this kind of blanket-disclosure
demand must satisfy exacting scrutiny, including that it be narrowly tailored to the
government’s asserted interests, TMLC emphasizes that a blanket-disclosure
requirement must withstand strict scrutiny, i.e., serve a compelling government
interest and be no broader than necessary to serve that interest. Compare AFPF Br.
20–30, with TMLC Br. 19–29. These complementary but distinct arguments are
reflected in the distinct questions presented by the Petitioners’ respective petitions
for certiorari that this Court granted.

So, while both Petitioners agree that

California’s blanket-disclosure mandate is unconstitutional, Petitioners have offered

2

different approaches for resolving the questions presented and will provide different
perspectives on the legal issues at stake in these cases.
Divided argument will illuminate these distinct lines of argument and allow
the Court to explore each. In recent Terms, this Court has granted divided argument
in consolidated cases where the parties advanced different approaches to determining
the constitutionality of challenged conduct or emphasizing different arguments in
support of the same basic legal proposition. E.g., Fulton v. City of Philadelphia, 141
S. Ct. 230 (2020) (mem.); Kelly v. United States, 140 S. Ct. 661 (2019) (mem.); Rucho
v. Common Cause, 139 S. Ct. 1316 (2019) (mem.); Am. Legion v. Am. Humanist Ass’n,
139 S. Ct. 951 (2019) (mem.); Ala. Democratic Conference v. Alabama, 135 S. Ct. 434
(2014) (mem.); McDonald v. City of Chicago, 559 U.S. 902 (2010) (mem.). Divided
argument is similarly appropriate here.
3.

These consolidated cases also merit divided argument because they each

involve distinct as-applied challenges dependent on facts unique to each Petitioner,
as reflected in the separate trial records developed in each case. Compare AFPF Br.
47–53, with TMLC Br. 44–49. Indeed, the importance of these Petitioner-specific
record materials prompted Petitioners to submit separate joint appendices. Divided
argument will ensure that both Petitioners have an opportunity to present their
separate as-applied challenges and to address any questions the Court may have
pertaining to their respective trial-court records.
Indeed, given how important the specific facts of each case are, it would be
difficult for one attorney to represent both Petitioners in the same oral argument. To

3

begin, while Petitioners’ arguments do not directly conflict, an attorney representing
one Petitioner would emphasize points that are not necessarily in the other
Petitioner’s interest.

What’s more, requiring one attorney to jump between the

specific facts at issue in each case in response to questions—and applying a different
legal standard to each—would make argument more confusing than if the cases were
separately presented. See Stephen M. Shapiro, et al., Supreme Court Practice 777
(10th ed. 2013) (“Having more than one lawyer argue on a side is justifiable . . . when
they represent different parties with different interests or positions.”).
Unsurprisingly, this Court frequently grants divided argument in consolidated
cases where unique facts pertain to parties on the same side of a case. E.g., Rosen v.
Dai, __ S. Ct. __, 2021 WL 161007, at *1 (Jan. 19, 2021) (mem.) (granting divided
argument in consolidated cases presenting different evidentiary records in removal
proceedings); Abbott v. Perez, 138 S. Ct. 1544 (2018) (mem.) (granting divided
argument in consolidated cases presenting different claims of racial gerrymandering); Turner v. United States, 137 S. Ct. 1248 (2017) (mem.) (granting divided
argument in consolidated cases presenting distinct Brady claims); Ziglar v. Abbasi,
137 S. Ct. 615 (2017) (mem.) (granting divided argument in consolidated cases
presenting distinct Bivens claims); Kansas v. Gleason, 135 S. Ct. 2917 (2015) (mem.)
(granting divided argument in consolidated cases presenting different sentencing
issues); Davis v. Washington, 546 U.S. 1213 (2006) (mem.) (granting divided
argument in consolidated cases presenting distinct Confrontation Clause claims);
Rapanos v. United States, 546 U.S. 1000 (2005) (mem.) (granting divided argument

4

in consolidated cases presenting factually distinct positions concerning application of
the Clean Water Act). The Court should do the same here.
4.

These cases also present questions of extraordinary public importance.

At the merits stage alone, these cases have already received 43 amicus submissions
signed by over 200 organizations and 22 States. Groups representing a broad range
of interests and ideas have submitted briefs urging this Court to reverse or vacate
the Ninth Circuit’s decision. These amicus filings cut across ideological lines in
endorsing robust constitutional protection for anonymous charitable giving.
This Court has granted divided argument in cases that likewise implicated
momentous issues of public importance.

E.g., Brnovich v. Democratic National

Committee, __ S. Ct. __, 2021 WL 231550 (Jan. 25, 2021) (mem.) (Voting Rights Act
litigation); Masterpiece Cakeshop, Ltd. v. Colo. Civil Rights Comm’n, 138 S. Ct. 466
(2017) (mem.) (Free Exercise Clause’s requirement of religious neutrality); United
States v. Texas, 136 S. Ct. 1539 (2016) (mem.) (validity of Deferred Action for Parents
of Americans and Lawful Permanent Residents program); Nat’l Fed’n of Indep. Bus.
v. Sebelius, 565 U.S. 1193 (2012) (mem.) (validity of the Affordable Care Act’s
insurance mandate). The Court should do the same here.
5.

Counsel for Petitioners was informed that the Acting Solicitor General,

on behalf of the United States, intends to move for leave to participate in oral
argument as amicus curiae, and Petitioners will consent to that request. The United
States apparently will seek to have its time drawn equally from Petitioners and
Respondent, five minutes apiece. In the event that the United States so moves,

5

Petitioners respectfully request that the Court enlarge the oral argument by 10
minutes for the Solicitor General and divide Petitioners’ argument time, 15 minutes
for AFPF and 15 minutes for TMLC. That division of time would ensure that the
Court receives a full and deliberate presentation of the important issues that these
cases present, which is especially important here in light of the extensive factual
record and the different arguments pressed by AFPF, TMLC, and the United States.
*

*

*

For the foregoing reasons, Petitioners jointly request that the Court divide oral
argument time equally between them. If the United States seeks to participate in
oral argument, Petitioners further propose that the Court enlarge oral argument time
by 10 minutes and grant 15 minutes to AFPF, 15 minutes to TMLC, and 10 minutes
to the United States.

6

Dated: March 11, 2021

Respectfully submitted,
/s/ Derek L. Shaffer
DEREK L. SHAFFER
Counsel of Record
WILLIAM A. BURCK
JOHN F. BASH
JONATHAN G. COOPER
QUINN EMANUEL URQUHART
& SULLIVAN, LLP
1300 I Street, NW, Suite 900
Washington, DC 20005
(202) 538-8000
derekshaffer@quinnemanuel.com

KRISTEN K. WAGGONER
JOHN J. BURSCH
Counsel of Record
DAVID A. CORTMAN
RORY T. GRAY
CHRISTOPHER P. SCHANDEVEL
MATHEW W. HOFFMANN
ALLIANCE DEFENDING FREEDOM
440 First Street, NW
Suite 600
Washington, D.C. 20001
(616) 450-4235
jbursch@ADFlegal.org

KATHLEEN M. SULLIVAN
QUINN EMANUEL URQUHART
& SULLIVAN, LLP
865 S. Figueroa St.
10th Floor
Los Angeles, CA 90017
(213) 443-3000

LOUIS H. CASTORIA
KAUFMAN DOLOWICH
& VOLUCK, LLP
425 California Street
Suite 2100
San Francisco, CA
94104

Counsel for Americans for
Prosperity Foundation

Counsel for Thomas More
Law Center

7

